No.
IN THE

Suprenu 0--nurt of tile niteb totes
ALVIN E. MEDINA, PETITIONER
v.
FEDERAL AVIATION ADMINISTRATION

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

PETITION FOR WRIT OF CERTIORARI

ALVIN E MEDINA
pro se
29254 Wagon Creek Ln.
Menifee, CA 92584
(951) 746-4498

CURRY & TAYLOR • 202-350-9073

QUESTION(S) PRESENTED
Alvin E Medina, the Petitioners, request this
Petition for Writ of Certiorari be granted given the
salient issue equitable tolling, and the constitutional
matter of proper notice of appeal rights and proper
certificate of service of a decision is absent. When a
Federal Circuit Courts has jurisdiction of its own court's
precedent, "do you throw the baby out with the bath
water"? Notice of appeal rights 5 C.F.R. § 1201.21 (a) to
get you to 5 U.S.C. § 7703 (b) (1) (A); and 5 U.S.C. § 7121
(f) ("Section 7303.....pertaining to judicial review shall
apply to the award of an arbitrator in the same manner
and under the same conditions as if the matter had been
decided by the Board") An arbitrator "issues notice" on
"the date on which" the arbitrator "sends the parties the
final decision, whether electronically, by regular mail, or
by other means."1) (A); the 60 day time limit to lead you
to the federal court to appeal a decision is silent is that
equitable tolling? Notice of Appeal Rights on March 29,
2019, and "[t]he arbitrator's decision letter was silent on
the Petitioner appeal rights in this process," and "had no
instructions, guidance, or any language on where, when,
or how to file an appeal." Petition for Review should have
been granted under 5 U.S.C. § 7703 (b) (1) (A); and 5
U.S.C. § 7121 (f). Pro-se party must be afforded the same
protections mandated by the rules of the MSPB, and the
constitution. 28 U.S Code § 2107. Time for appeal to court
of appeal
WHETHER THE FAILURE TO PROVIDE NOTICE
OF APPEAL RIGHTS WITH ARBITRATOR'S
DECISION AND CERTIFICATE OF SERVICE TO
PRO-SE LITIGANTS WARRANTED A FAVORABLE
RULING FOR A PETITION FOR REVIEW UNDER 5

222

STATEMENT OF RELATED CASES
None.

iv
TABLE OF CONTENTS
Page
QUESTION(S) PRESENTED
STATEMENT OF RELATED CASES

iii

TABLE OF AUTHORITIES
OPINIONS BELOW

1

JURISDICTION

1

RELEVANT PROVISIONS INVOLVED

1

STATEMENT

3

REASONS FOR GRANTING THE PETITION

6

CONCLUSION

7

APPENDIX

Circuit Court Order
District Court Order
Order denying rehearing

la
5a

TABLE OF AUTHORITIES
Page
CASES

Cornelius v Nutt 472 US 648 (1985)

4

STATUTES
5 U.S.C. § 7121
5 U.S.C. § 7121(b)(1)(A)
28 U.S.C. Section 1254

2, 4
2
1

RULES
Fed. R. Civ. P Rule 12(b)(6)

3

REGULATION
5 C.F.R. § 1201.21
5 C.F.R. § 1201.21(a)
5 C.F.R. § 7703

4, 6
2
6

1
OPINIONS BELOW
The case is presented to this Honorable Court
from an appeal from a decision of the Federal Courts
of Appeal for the Federal Circuit, which decision is
dated February 28, 2020. (1a).
The Petitioner had filed an original appeal from, a
United States District Court for the Central District
of California dated June 4, 2019, transferring the
Action to the United States Court of Appeals for the
Federal Circuit for lack of jurisdiction.
JURISDICTION
The statutory provision for this Federal Circuit
Court's jurisdiction is 28 U.S.C. Section 1254. The
Ninth Circuit denied the Petitioners' Petition for
Panel Rehearing on February 28, 2020, and On
Petition for Panel Rehearing and Rehearing En Banc
on April 30, 2020.
RELEVANT PROVISIONS INVOLVED
Fourteenth Amendment, United States
Constitution:
The Due Process Clause of the Fourteenth
Amendment provides that no State "shall ...
deprive .any person of life, liberty, or property,
without due process of law. "

2
5 C.F.R. § 1201.21(a)
§ 1201.21 Notice of appeal rights.
When an agency issues a decision notice to an
employee on a matter that is appealable to the
Board, the agency niust provide the employee
with the following:
(a) Notice of the time limits for appealing to the
Board, the requirements of § 1201.22(c), and the
address of the appropriate Board office for filing
the appeal;
5 U.S.C. § 7121(b)(1)(A)
Except as provided in subparagraph (B) and
paragraph (2) of this subsection, a petition to
review a final order or final decision of the Board
shall be filed in the United States Court of
Appeals
for
the
Federal
Circuit.
Notwithstanding any other provision of law, any
petition for review shall be filed within 60 -days
after the Board issues notice of the final order or
decision of the Board.
5 U.S.C. § 7121 (f)
In matters covered under sections 4303 and 7512
of this title which have been raised under the
negotiated grievance procedure in accordance
with this section, section 7703 of this title
pertaining to judicial review shall apply to the
award of an arbitrator in the same manner and
under the same conditions as if the matter had
been decided by the Board. In matters similar to

3
those covered under sections 4303 and 7512 of
this title which arise under other personnel
systems and which an aggrieved employee has
raised under the negotiated grievance
procedure, judicial review of an arbitrator's
award may be obtained in the same manner and
on the same basis as could be obtained of a final
decision in such matters raised under applicable
appellate procedures.
STATEMENT
Procedural History
Petitioner commenced the underlying case against
the Respondents on or about June 4, 2019, United States
District Court for the Central District of California for
Petition for Review of Arbitrator's Decision.
On March 28, 2019, Arbitrator Linda Byars ruled '
against National Air Traffic Controllers Association,
AFL-CIO, (NATCA) representing Petitioner (Alvin E
Medina) Arbitrator's decision in the- present case.
Respondents filed their initial Motion to Dismiss the
Complaint pursuant to Fed. R. Civ. P Rule 12(b)(6).
Petitioner seeks review of a final arbitration award
affirming Petitioner' removal from his position as a
Drug and Alcohol Compliance and Enforcement
Inspector. Petitioner filed thirteen grievances against
the Agency with nine grievances to , the arbitrator
related to the Federal Aviation Administration's
decision to remove the Petitioner with 37 years of
federal service, 20 years military and 17 years civil
service, with an unblemished record.
Petitioner received an email stating "We received

4
Arbitrator Byars' decision on your case. Please give me
a call when you have a few minutes to discuss it." on
April 9, 2019.
Petitioner received a soft copy of arbitrator's
decision by email on April 10, 2019. The Petitioner
never received the certificate of service nor notice of
appeal right as required by 5 C.F.R. § 1201.21, and 5
U.S.C. § 7121, 7703.
Petitioner questioned whether the Arbitrator's
decision does not draw its essence from the collective
bargaining agreement, and it does not comply with case
law.
The Petitioner believes the Arbitrator's decision
incorrectly determined that the Petitioner's immediate
supervisor complied with case law and the CBA when a
higher-level manager did not provide concurrence of
the Agency final action to remove Petitioner from
federal service. The Arbitrator has an obligation to
follow the same "substantive" rules as the Merit
System Protection Board (MSPB) does in reviewing
the Agency action (Cornelius V Nutt 472 US 648 (1985)
The Petitioner filed a Petition for Review of
Arbitrator's Decision to the United States District
Court for the Central District of California dated June
4, 2019.
On September 27, 2019, the United States District
Court for the Central District of California transferred
the case to the United States Court of Appeals for the
Federal Circuit. The United States Court of Appeals
for the Federal Circuit then denied the Petition for
Review of Arbitrator's Decision Rehearing due to
Respondent motion under Federal Rules of Appellate
Procedure and Federal Circuit Rule 27(f) and dismissed
the petition for lack of jurisdiction.

5
This Writ is timely filed. Therefore, the Petitioner
seeks relief from this Honorable Court.
Facts
The Petitioner (Alvin E Medina) former Federal
Aviation Administration, Drug and Alcohol Compliance
and Enforcement Inspector.
From January 27, 2014, through April 23, 2018,
Petitioner was subjected to reprisal and disparate
treatment. Throughout September 2014 and September
2015, Mr. Jeffrey Stookey, first-line supervisor told
several of Petitioner coworkers that he was stressed
out dealing with Petitioner. Mr. Jeffrey Stookey told
these employees that Petitioner -was a terrible
inspector and they should stay away from Petitioner,
and not bid on inspections with Petitioner. Mr. Jeffrey
Stookey, told several new employees that Petitioner
was fired and won his MSPB case, so the Agency had to
bring Petitioner back to work.
On December 5, 2013, The Merit System
Protection Board (MSPB) Administrative Law Judge
ruled in Petitioner's' favor and did not sustain the
Agency removal action.
On January 16, 2014, Rafael Ramos, FAA Drug
Abatement Division Manager initiated an investigation
with the office of Security and Hazardous Materials
Safety. The Agency was dissatisfied with the AJ
ruling.
On January 27, 2014, Petitioner returned to federal
service as an Inspector while still under the protected
activity with the MSPB.
From January 27, 2014, through April 23, 2018,
Petitioner was subjected to reprisal and disparate

6
treatment. The Petitioner filed thirteen grievances
against the Agency.
On April 23, 2018, Petitioner was terminated
from the FAA by his first line supervisor.
On December 11th and 12th 2019, an arbitration
hearing was held.
REASONS FOR GRANTING THE PETITION
I. THE FAILURE TO LIST NOTICE OF APPEAL
RIGHT TO DIRECT THE PETITIONER TO TIME
LIMIT OF 60 DAYS. A PLEADING UPON PRO-SE
LITIGANT WARRANTED A FAVORABLE RULING
UNDER 5 C.F.R. § 1201.21, AND 5 C.F.R. §
7703.... PERTAINING TO JUDICIAL REVIEW
SHALL APPLY TO THE AWARD OF AN
ARBITRATOR IN THE SAME MANNER AND
UNDER THE SAME CONDITIONS AS IF THE
MATTER HAD BEEN DECIDED BY THE
BOARD").
5 C.F.R. § 1201.21 Notice of appeal rights
When an agency issues a decision notice to an
Employee on matter that is appealable to the
Board, the agency must provide the employee
with the following:
Notice of time limits for appealing to the
Board, the requirements of § 1201.21(c), and
the address of the appropriate Board office for
filing the appeal:
A copy, or access to a copy, of the Board's
regulation;

7
CONCLUSION
For the reasons stated herein, this petition
should be granted
Respectfully submitted,
ALVIN E MEDINA
pro se
29254 Wagon Creek Ln.
Menifee, CA 92584
(951) 746-4498

